Audit of Regionalization Efforts in Latin America and
the Caribbean

Audit Report No. 1-598-05-001-P
November 9, 2004




             San Salvador, El Salvador
November 9, 2004

MEMORANDUM

FOR:           LAC/EMT Director, Carla Royalty

FROM:          RIG/SanSalvador, Steven H. Bernstein “/s/“

SUBJECT:       Audit of Regionalization Efforts in Latin America and the
               Caribbean (Report No. 1-598-05-001-P)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

This report contains seven recommendations for your action. Based on your
comments, management decisions have been reached for these recommendations.
Determination of final action will be made by the Bureau for Management’s Office
of Management Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                                  1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                          5
Contents
           Background                                                                  5

           Audit Objectives                                                            6

           Audit Findings                                                              6

           What plans did the Bureau for Latin America and the Caribbean have for
           regionalization of support functions?                                       6

                  A Formal Plan Was Not Developed                                      6

                  Dedicated Staff Were Not Assigned                                    7

                  Communication With Missions Could Be Improved                        8

                  A Comprehensive Cost Analysis Was Not Prepared                      9

                  Monitoring of Service Agreements Among Missions Was Needed          10

           How did the Bureau for Latin America and the Caribbean make decisions
           related to regionalization of support functions?                           11

           Did the Bureau for Latin America and the Caribbean consider competitive
           sourcing in regionalizing its support functions in accordance with USAID
           policies and U.S. laws and regulations?                                    14

           Evaluation of Management Comments                                          16

           Appendix I – Scope and Methodology                                         17

           Appendix II – Management Comments                                          19




                                                                                           3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/San Salvador conducted this audit to determine (1)
Results      what plans the Bureau for Latin America and the Caribbean (LAC) had for
             regionalization of support functions; (2) how the LAC Bureau made decisions
             related to regionalization of support functions; and (3) whether the LAC Bureau
             considered competitive sourcing in regionalizing its support functions in accordance
             with USAID policies and U.S. laws and regulations (page 6).

             The LAC Bureau did not have a formal plan for regionalization of support
             functions (page 6).

             The LAC Bureau made decisions related to regionalization of support functions
             based on the following factors: program size and complexity, volume and
             complexity of transactions, experience and quality of foreign service national
             staff, physical security of mission location, operating expense support costs,
             budget/cost savings, and quality-of-life indicators (page 11).

             The LAC Bureau considered competitive sourcing in regionalizing its support
             functions in accordance with USAID policies and U.S. laws and regulations (page
             14).

             We made seven recommendations to address the items discussed in this report.
             We recommended that the LAC Bureau (1) develop a formal plan for
             regionalization and communicate the plan to the missions; (2) assign a team
             dedicated to the regionalization effort; (3) improve and regularize
             communications with the missions; (4) establish feedback mechanisms with the
             missions to measure effectiveness and efficiencies of regionalization; (5) prepare
             a comprehensive cost analysis in support of regionalization; (6) establish a
             process for monitoring all service agreements between the regional service centers
             and the client missions and ensure that service agreements are updated annually;
             and (7) establish a process for reviewing the staffing template and other cost
             savings at the missions (pages 7-11).

             The LAC Bureau agreed with the findings and recommendations presented in this
             report (page 19).



Background   The Bureau for Latin America and the Caribbean (LAC), in an effort to find
             efficiency gains through changes in its work process, had been discussing
             regionalization of certain functions in the LAC region. The goal was to achieve
             efficiency without undermining the ability to achieve results and maintain
             adequate accountability. Support functions that may be regionalized included
             financial management, executive office management, legal advisory, and
             contracting. The competitive sourcing issue addressed by this audit was part of
             the President’s Management Agenda.



                                                                                               5
             This audit covered the beginning of the regionalization efforts in 1996 through the
             first day of fieldwork, June 21, 2004.

             The LAC Bureau’s fiscal year 2004 proposed budget was approximately $80
             million for regional activities that contribute to strategic objectives being
             implemented by various organizations.



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following questions:

                   1. What plans did the Bureau for Latin America and the Caribbean have for
                      regionalization of support functions?

                   2. How did the Bureau for Latin America and the Caribbean make
                      decisions related to regionalization of support functions?

                   3. Did the Bureau for Latin America and the Caribbean consider
                      competitive sourcing in regionalizing its support functions in accordance
                      with USAID policies and U.S. laws and regulations?

             Appendix I describes the audit's scope and methodology.



 Audit       What plans did the Bureau for Latin America and the Caribbean (LAC)
 Findings    have for regionalization of support functions?

             The LAC Bureau did not have a formal plan for regionalization of support
             functions. In an effort to conserve scarce operating expense costs, beginning in
             1996 the LAC Bureau had envisioned four regional service centers in the region -
             one in the Caribbean, one in Central America, and two in South America. A
             future vision of regionalization included reducing the two regional centers in
             South America to one. Although the LAC Bureau had been making efforts
             towards regionalization since 1996, it had never developed a formalized plan for
             regionalization of support functions. One of the causes of a lack of a formal plan
             was that no individual or group was dedicated to the regionalization process.
             Various individuals were responsible for various portions of the regionalization
             process, but no one individual or group was solely dedicated to this effort. Also,
             due to the lack of a formalized plan, the communication provided to the field
             missions lacked clarity and was distributed irregularly, no comprehensive cost
             analysis was performed to support the regionalization efforts, and no efforts were
             made to ensure that service agreements among the field missions were followed
             and carried out as stated in the agreements.



                                                                                              6
A Formal Plan Was Not Developed

The LAC Bureau had not prepared a formal plan for regionalization which
included identification of key participants, identification of key risks and
constraints, a complete timeline of estimated dates of implementation and
completion of Phoenix, mission assessments and other major milestones, as well
as documentation of the future staffing patterns for the field missions and a
proposal of the functions to be regionalized.

Automated Directives System (ADS) 200.3.2.1 states that:

       Managing for results means that we seek to define and organize
       our work around the end result we seek to accomplish. This
       means making intended results explicit; ensuring agreement
       among partners, customers, and stakeholders that proposed
       results are worthwhile; and organizing our day-to-day work and
       interactions to achieve results as effectively as possible.

The LAC Bureau was focused on immediate cost savings instead of proactively
designing a strategy for meeting support needs. Also, there was no dedicated staff
assigned for the regionalization efforts. Without a concrete plan, the LAC Bureau
did not have a clearly defined goal of regionalization and would not be able to
successfully coordinate and monitor the implementation of regionalization.

       Recommendation No. 1: We recommend that the Bureau for
       Latin America and the Caribbean (a) develop a formal plan for
       regionalization that will include key participants, key risks and
       constraints, a complete timeline of estimated dates of
       implementation and completion of Phoenix, mission
       assessments, other major milestones, documentation of the
       future staffing patterns for the field missions and a proposal of
       the functions to be regionalized and (b) communicate the plan
       to the missions in the Latin America and Caribbean region.

Dedicated Staff Were Not Assigned

As noted above, ADS 200.3.2.1 states that “managing for results means that we
organize our day-to-day work and interactions to achieve results as effectively as
possible.”

Various individuals were responsible for various portions of the regionalization
process, but no one individual or group was solely dedicated to this effort.
Having a dedicated team with institutional knowledge will ensure that plans for
regionalization are updated and communicated effectively to all interested parties
at the LAC Bureau and at the missions. This team will be able to more effectively
coordinate, plan, implement, and monitor the regionalization process. However,


                                                                                7
such a team was not established because the LAC Bureau was focused on
immediate cost savings instead of proactively designing a strategy for meeting
support needs.

       Recommendation No. 2: We recommend that the Bureau for
       Latin America and the Caribbean assign a team dedicated to
       the regionalization efforts.

Communication With Missions
Could Be Improved

The LAC Bureau held various meetings with the mission directors and controllers
to discuss the regionalization efforts; however, because the LAC Bureau lacked a
formalized plan and a dedicated team assigned to these efforts, the information it
provided to the missions lacked clarity, and was distributed irregularly, resulting
in unclear expectations from the missions. The LAC Bureau was focused on
immediate cost savings instead of focusing on actively communicating the
regionalization efforts to the missions.

According to several controllers, executive and contracting officers, and legal
advisors, few missions were made aware of the progress and plans towards
regionalization of support functions. Missions’ views of regionalization efforts
were not consistent with that of the LAC Bureau. For example, two controllers in
the LAC region indicated that the missions would not be affected by
regionalization for several years. Also, the LAC Bureau considered Peru as the
regional hub for Colombia, including providing financial management services.
However, according to USAID/Colombia, the Mission was moving towards being
self-sufficient in this area.

As noted on page 7, ADS 200.3.2.1 states that intended results should be explicit
and interactions should be organized to achieve results as effectively as possible.

Regionalization was an on-going process with changes occurring frequently. The
Bureau should focus on improving and regularizing communication with the
missions. Specifically, the Bureau should receive progress updates from the
missions on a regular basis and should establish feedback mechanisms to measure
the effectiveness and efficiency of the regionalization efforts. Without regular
and consistent communication with the field missions, expectations will be
unclear, and the missions will not be able to successfully participate in the
activities needed to regionalize.      Furthermore, without commitment and
cooperation from the missions, the changes needed will not be made successfully.




                                                                                 8
       Recommendation No. 3: We recommend that the Bureau for
       Latin America and the Caribbean improve and regularize
       communications with the field missions by (a) sending regular
       updates to the missions regarding progress and plans made
       towards regionalization and expectations, if any, of the
       missions in implementing the regionalization plans and (b)
       receiving regular updates from the missions regarding the
       progress made towards the expectations defined by the Bureau
       in step a.

       Recommendation No. 4: We recommend that the Bureau for
       Latin America and the Caribbean establish feedback
       mechanisms with the field missions to measure effectiveness
       and efficiencies of regionalization.

A Comprehensive Cost Analysis
Was Not Prepared

One of the primary goals of regionalization was to reduce operating expense
costs. Although the LAC Bureau held many discussions regarding the cost
savings and reductions that would result from regionalization, it did not prepare a
formal comprehensive documentation or analysis to show the cost reductions. No
documentation was provided that indicated the number of staff that would be
reduced and/or the dollar amounts that would be saved for the region as a result of
regionalization. Moreover, some missions stated that no change in staff or cost
savings had occurred over the years as a result of regionalization.

As noted on page 7, ADS 200.3.2.1 states that intended results should be explicit
and ensure that proposed results are worthwhile to achieve results as effectively as
possible.

The LAC Bureau reacted to immediate cost pressures thereby did not focus on
preparing a comprehensive cost analysis. Furthermore, a formal plan was not
developed and a dedicated staff was not assigned to focus on a comprehensive
cost analysis of the overall regionalization efforts. Without such an analysis, the
LAC Bureau is unable to support its efforts to regionalize to the mission directors
and will be at a disadvantage in carrying out its objectives. Furthermore, without
a comprehensive cost analysis, the LAC Bureau will not be able to monitor the
effectiveness and efficiencies of the regionalization efforts.

       Recommendation No. 5: We recommend that the Bureau for
       Latin America and the Caribbean prepare a comprehensive
       cost analysis for the Caribbean, Central America, and South
       America regions in support of its regionalization efforts.




                                                                                  9
Monitoring of Service Agreements
Among Missions Was Needed

As noted on page 7, ADS 200.3.2.1 states that intended results should be explicit;
ensuring agreement among partners, customers, and stakeholders that proposed
results are worthwhile; and organizing our day-to-day work and interactions to
achieve results as effectively as possible.

A review of the service agreements among missions for regionalization support
services revealed that some agreements were dated in the year 2000 and were not
being monitored by the LAC Bureau to ensure that expectations of each mission
were being met.

Once the LAC Bureau determined that the missions should consolidate support
functions, the missions determined which specific activities within the support
functions to regionalize, the number of visits made to the client missions by the
regional service centers, and how costs would be shared among the missions.
These decisions were outlined and approved by the missions as part of the service
agreements.

The LAC Bureau had expected that the agreements would be followed by the
missions and therefore had not interfered. Also, because the regionlization efforts
were not carefully thought out by the LAC Bureau as evidenced by the lack of a
formal plan, it did not consider the monitoring of agreements among the missions
as part of the regionalization process. To ensure that the missions cooperate and
participate in the regionalization activities, the LAC Bureau should monitor these
agreements. Such monitoring will also ensure that the missions clearly
understand their expectations related to the functions to be regionalized, the
number of visits, and how costs would be shared among the missions.
Furthermore, due to the changing nature of mission programs and activities,
service agreements should be updated annually. Also, it is important for the LAC
Bureau to review the staffing template and other cost savings at the missions in
order to effectively monitor the overall success of the regionalization process.

       Recommendation No. 6: We recommend that the Bureau for
       Latin America and the Caribbean establish a process for
       monitoring all service agreements between the regional service
       centers and the client missions to ensure proper
       implementation of the regionalization plan and that the service
       agreements are updated annually.




                                                                                10
      Recommendation No. 7: We recommend that the Bureau for
      Latin America and the Caribbean establish a process for
      reviewing the staffing template and other cost savings at the
      missions to effectively monitor the overall success of
      regionalization.

How did the Bureau for Latin America and the Caribbean (LAC) make
decisions related to regionalization of support functions?

The LAC Bureau made decisions related to regionalization of support functions
based on the following factors:

•     Program size and complexity – The amount of funding received as
      measured in annual dollars obligated, the number of strategic objectives,
      the number of management units, and the mix of funding sources at each
      mission were assessed to determine the most appropriate location for the
      regional service center.

•     Volume and complexity of transactions – The volume and complexity of
      transactions were assessed to determine the feasibility of moving support
      functions without undermining the mission’s ability to achieve mission
      objectives.

•     Experience and quality of foreign service national staff – The experience
      and quality of the foreign service national staff were assessed to determine
      the feasibility of moving support functions. The staff needed to have the
      skills and experience to handle the additional volume of transactions and
      also be able to provide proper support and advice to client missions.

•     Security of mission location – The physical security of mission facilities
      was assessed to determine the most appropriate location for the regional
      service center.

•     Operating expense support costs – Operating expense support costs were
      assessed to reveal the lower cost missions. These support costs included
      residential rents, residential utilities, residential and office security,
      foreign service national staff salaries and benefits, and total operating
      expense per capita U.S. direct hire.

•     Budgets/costs – The cost of flights in and out of country, cost of
      temporary duty travel, cost of living, and cost of staff were considered in
      determining the location of the regional service center.

•     Quality-of-life indicators – Quality-of-life indicators were assessed to
      determine which location would be preferable as the regional service
      center. These indicators included security in country, education, health

                                                                               11
          services, social and cultural life, convenience and reliability of
          transportation, and telecommunication facilities.

Although the LAC Bureau did not have a formalized plan for regionalization, it
made progress towards regionalization by making decisions related to the location
of the regional service centers based on the above factors. Nevertheless, these
factors were not consistently applied to all the regional service centers, and, in the
case of Central America, the location decision was made informally. Specific
factors used for decisions on the regional service centers are discussed below for
each regional service center selected. The regional service centers were the
Dominican Republic for the Caribbean, El Salvador for Central America, and
Peru and Bolivia for South America.

As discussed on page 6, a future vision of regionalization included reducing the
two regional centers in South America to one. The basis for this decision has not
been formalized.

Caribbean – In 1997, the Dominican Republic was designated as the regional
service provider for Guyana, Haiti, and Jamaica, and provided services to the
missions as follows:

Table 1: Support Functions Provided by the Dominican Republic

    Support Function                Country Services Provided1
    Legal Advisory                  Dominican Republic, Guyana, Haiti, Jamaica
    Contracting                     Dominican Republic, Guyana, Haiti, Jamaica
    Executive Office                Dominican Republic, Guyana, Jamaica
    Financial Management            Dominican Republic, Guyana, Haiti

The process for determining the regional service center in the Caribbean region
involved numerous meetings with various participants and invited input from the
Caribbean missions. Two missions, the Dominican Republic and Jamaica,
emerged as the most likely candidates. Haiti was included in the initial
framework but was eliminated as a viable option due to the political instability of
the country, its poor infrastructure, and the difficulty in attracting people to the
post.

The Dominican Republic was determined to be the better location for the regional
service center for the following reasons: the foreign service national staff in the
Dominican Republic were more qualified and less costly than that in Jamaica; the
Dominican Republic was already providing services to Guyana, and the quality-


1
    Haiti and Jamaica receive limited legal advisory services and contracting support from the
    Dominican Republic.


                                                                                           12
of-life indicators reviewed were higher than those of Jamaica. Finally, most
operating expense support costs were lower in the Dominican Republic than in
Jamaica.

Central America – In 1996, El Salvador was designated as the regional service
provider for Panama and Mexico and provided services to the missions as
follows:

Table 2: Support Functions Provided by El Salvador

 Support Function             Country Services Provided
 Legal Advisory               El Salvador, Mexico, Panama, Honduras
 Contracting                  El Salvador, Mexico, Panama
 Executive Office             El Salvador
 Financial Management         El Salvador, Mexico, Panama

In this region, Guatemala, Honduras, and Nicaragua, remained as “stand alone”
missions, but Nicaragua received legal advisory services from Guatemala, and
contracting support from Honduras. El Salvador provides only legal advisory
services to Honduras.

El Salvador was an obvious choice as the regional service center for the following
reasons: the mission was located in a building on the Embassy compound that
met all physical security standards; El Salvador was the transportation hub of
Central America, allowing easy access to and from other countries in the region;
and the experience and quality of the staff in El Salvador were considered high.

South America - Three options were considered for configuring the service
network: (1) provide all support services from Peru, (2) provide all support
services from Bolivia, and (3) provide services for Brazil and Paraguay from
Bolivia, and services for Ecuador and Colombia from Peru. The third option was
chosen in 1996, dividing the continent down the spine of the Andes for service
delivery. Bolivia was designated as the regional center for Brazil and Paraguay
and Peru as the regional center for Ecuador and Colombia. Support services
provided were as follows:

Table 3: Support Functions Provided by Bolivia

 Support Function             Country Services Provided
 Legal Advisory               Bolivia, Brazil, Paraguay
 Contracting                  Bolivia, Brazil, Paraguay
 Executive Office             Bolivia, Brazil, Paraguay
 Financial Management         Bolivia, Brazil, Paraguay



                                                                               13
Table 4: Support Functions Provided by Peru

 Support Function             Country Services Provided
 Legal Advisory               Peru, Ecuador, Colombia
 Contracting                  Peru, Ecuador
 Executive Office             Peru, Ecuador
 Financial Management         Peru, Ecuador, Colombia

Peru and Bolivia were designated as the regional service centers because of the
size of their mission programs. In 1996, when the regionalization efforts began,
Peru and Bolivia received more funding and had a greater number of strategic
objectives than the other countries in the region. During that time, plans called
for ending the program in Colombia and significantly reducing the program in
Ecuador by the end of 1999 and 2000, respectively.

Did the Bureau for Latin America and the Caribbean (LAC) consider
competitive sourcing in regionalizing its support functions in accordance
with USAID policies and U.S. laws and regulations?

The LAC Bureau considered competitive sourcing in regionalizing its support
functions in accordance with USAID policies and U.S. laws and regulations.

Competitive sourcing was one of five government-wide initiatives in the
President’s Management Agenda, a plan to reform the Federal government by
making it citizen-centered, results-oriented, and market-based. Competitions
were held in which the costs and overall value of services were compared among
private sector and Federal government providers. Winners were selected based on
who could deliver the best services at the best value for the American taxpayer,
regardless of the provider.

The Office of Management and Budget (OMB) Circular A-76 “Performance of
Commercial Activities,” states that the long standing policy of the Federal
government has been to rely on the private sector for needed commercial services.
To ensure that the American people receive maximum value for their tax dollars,
commercial activities should be subject to the forces of competition.
Accordingly, agencies shall use this circular as a guide for the public-private
competition process. The competition process is a method for comparing the
value of performing a function outside the Government (private, non-profit, or
other). Competition through the A-76 process establishes the best way to deliver
services for the least cost.

The Federal Activities Inventory Reform (FAIR) Act of 1998 requires the head of
each executive agency to submit to OMB by June 30 of each year a list of
commercial activities and inherently governmental activities their agency



                                                                              14
performs. The head of the agency must review the list and decide which activities
will be subject to competition under the guidance of OMB Circular A-76.

According to the ADS 104.2.C, “Performance of Commercial Activities,” USAID
“Heads of Bureaus implement OMB A-76 provisions within their areas of
responsibility; identify in-house functions for review; and assess the application
of OMB A-76 when considering an organization change.”

USAID recognized that competitive sourcing could be a highly effective
management tool to improve organizational performance and was implementing a
Competitive Sourcing Program that evaluated commercial activities for
competition.

Beginning in November 2002, USAID worked to establish a Competitive
Program. This work included:

•        Developing the 2003 FAIR Act and inherently governmental inventories
         to serve as a baseline for identifying competition candidates;

•        Engaging experienced consultants to assist with the implementation and
         execution of the competitive-sourcing program; and

•        Conducting an independent assessment of the FAIR Act and inherently
         governmental inventories to validate classification as inherently
         governmental and application of reason codes to commercial activities;

On June 30 of each year, all USAID Bureaus must submit an inventory datasheet
to the Bureau for Management, Office of Human Resources, Policy, Planning,
and Information Management Division.

The LAC Bureau inventoried its commercial activities and inherently
governmental functions in accordance with OMB policy and guidelines. The
2003 FAIR Act and inherently governmental inventories were used for the
nomination of candidates.

The inventory summary for fiscal year 2003, which was submitted to OMB by
June 30, 2004, included the following for the LAC Bureau:

Table 5: Inventory Summary

              Inventory Status               FY 2003      Percentage of Total
                                            Inventory            FTE
    Total Commercial Activities Full Time          10                      5%
    Equivalent (FTE)
    Total Inherently Governmental FTE              188                      95%
    Total FTE                                      198                     100%

                                                                               15
                Of the ten commercial positions identified in the fiscal year 2003 inventory in the
                LAC Bureau, five were exempt from competition. For the other five, the USAID
                Administrator determined that the disruption associated with competing those
                small numbers, which revealed small competition groupings, would be
                unacceptable at that time.    Justifications for exempting competition and for
                inherently governmental positions were prepared by the LAC Bureau.

                For regionalization purposes, according to the Assistant Competitive Sourcing
                Official, all U.S. direct hire positions in the missions are in the Foreign Service.
                As such, all Foreign Service designated positions, in accordance with sections
                101, 103, and 104 of the Foreign Service Act of 1980, must be in the career
                service and are inherently governmental in nature.

                The 188 inherently governmental positions identified in the LAC Bureau
                represented U.S. direct hire positions in the Foreign Service and positions in the
                civil service that were inappropriate for anyone outside the government to
                perform.


Evaluation of   The Bureau for Latin America and the Caribbean (LAC) agreed with the findings
Management      and recommendations presented in this report. Accordingly, management
Comments        decisions were made for the recommendations. The LAC Bureau’s comments are
                included in their entirety in Appendix II.

                Determination of final action will be made by the Bureau for Management’s Office
                of Management Planning and Innovation (M/MPI/MIC).




                                                                                                 16
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador audited the regionalization efforts
              in Latin America and the Caribbean (LAC) in accordance with generally accepted
              government auditing standards at USAID/Washington from June 21, 2004 to July
              9, 2004. Additional fieldwork was conducted in El Salvador through July 14,
              2004.

              The audit focused on (1) what plans the LAC Bureau had for regionalization of
              support functions; (2) how the LAC Bureau made decisions related to
              regionalization of support functions; and (3) whether the LAC Bureau considered
              competitive sourcing in regionalizing its support functions in accordance with
              USAID policies and U.S. laws and regulations.

              In conducting our audit, we did not assess the effectiveness of the Bureau for
              Latin America and the Caribbean’s internal controls.

              For objectives one and two, the audit covered all decisions made and plans made
              from the inception of the regionalization plan in 1996 to the date of fieldwork,
              June 21, 2004.

              For objective three, the audit covered the most recent inventory report conducted
              for fiscal year 2003 and submitted in June 2004.

              Methodology

              To answer audit objectives one and two, we interviewed the Administrative
              Management Officer, Contracting Officer, and Controller in the LAC Bureau, as
              well as sent out a questionnaire for all the controllers, contracting officers, legal
              advisors, and executive officers in the LAC region. We reviewed emails,
              discussions, reports, mission management assessments, and other relevant
              documentation.

              To answer audit objective three, we interviewed the Assistant Competitive
              Sourcing Officer and his staff, and reviewed the inventory data input for the LAC
              Bureau for 2003.

              For objectives one and two, we did not express an opinion as both objectives were
              descriptive in nature.

              In determining the significance of our findings, we applied the following criteria
              for issuing an opinion to objective three:




                                                                                                17
A positive opinion would be issued if the LAC Bureau performed the inventory
data inputs for 2003 in accordance with OMB-76, the FAIR Act of 1988, and
ADS 104.

A negative opinion would be issued if the LAC Bureau did not prepare the
inventory data inputs for 2003 in accordance with OMB-76, the FAIR Act of
1988, and ADS 104.




                                                                         18
                                                                                            Appendix II


Management
Comments
                                                                                        October 27, 2004

MEMORANDUM

FOR:           RIG/San Salvador, Steven H. Bernstein

FROM:          AA/LAC-EMT, Carla M. Royalty

SUBJECT:       Response to Audit of Regionalization Efforts in Latin American and the Caribbean
               (Report No. 1-598-04-00X-P)

Thank you for the opportunity to provide comments to the draft report on the subject audit and the seven
recommendations contained in the report. The Bureau appreciates the efforts of your team to provide us
with constructive information as we continue our regionalization efforts in the Hemisphere. Our
response to the draft report recommendations is as follows:

Recommendation #1: Develop a formal plan for regionalization and communicate the plan to the
field missions.

The Bureau agrees with the recommendation, particularly the need to insure that the plan is
communicated to the field missions. However, the Bureau does note that its regionalization efforts,
which began in the mid 1990’s, has been an ongoing process which has been subjected to changes in
USG foreign policy priorities, program requirements, country context where we have a presence,
funding constraints and declining resources, as well as changes in key participants in the regionalization
effort. Therefore, while we agree with the need to formalize a Bureau plan, it must be done in a way to
provide flexibility where needed, particularly where the Bureau does not have control over the timing of
actual implementation (i.e. completion of Phoenix), and other aforementioned factors. As the Bureau
moves forward with its plans to consolidate regional platforms, particularly in South America, we will
follow the audit recommendation to develop a formal plan with identification of key participants, key
risks and constraints and a complete timeline of estimated dates of implementation and completion of
Phoenix, mission assessments and other major milestones. We will be initiating this recommendation
with the upcoming regionalization conference in La Paz, Bolivia in December 2004. Target date for
completion: End of Fiscal Year 2005.

Recommendation #2: Assign a team dedicated to regionalization efforts.

The Bureau agrees with the recommendation contingent upon assignment of additional Agency ceiling.
LAC has already begun its efforts to create a unit that will report to the Front Office that will be
responsible for: a) ensuring that plans for regionalization are updated and communicated effectively
with the field and with other appropriate parties both within and outside of the Bureau; and b)
coordinating, implementing and monitoring the regionalization and Mission Management Assessment



                                                                                                       19
                                                                                                Appendix II

processes. The Bureau will begin recruitment and assignment of staff to this function beginning early
FY 2005, assuming that additional staff ceiling can be obtained by the Agency. Target date for
completion: June 2005

Recommendations #3 and #4: Improve and regularize communications with field missions and
establish feedback mechanisms with the field missions to measure effectiveness and efficiencies of
regionalization.

The Bureau agrees with both recommendations. This is an ongoing effort and will be a mandated
function for the new organizational unit dedicated to regionalization in LAC. Target date for
completion: Continuous

Recommendation #5: Prepare a comprehensive cost analysis in support of regionalization.

The Bureau agrees with this recommendation, and has already taken action in this regard with its
regionalization efforts in South America. The Bureau’s Mission Management Assessment Team recently
completed an updated comprehensive analysis in support of its study of regional platforms in South
America, which not only includes a comprehensive cost analysis, but also takes into consideration other
major factors, including security, quality of life indicators, travel availability between servicing and
client missions, quality of internet connectivity and telecommunications systems, and U.S. foreign
policy interests. The Bureau does note however, that in a post 9/11 environment, security concerns may
outweigh cost concerns. Additionally, the lack of experienced, skilled management support officers
(i.e., controllers, contracts officers, executive officers and regional legal advisors) and the need to reduce
management vulnerabilities are major considerations in regionalizing support services. Although one of
the primary goals of regionalization has been to reduce operating expense costs, the other
aforementioned factors will continue to be significant in determining future regionalization efforts. A
comprehensive analysis for support services in Caribbean will occur in FY ’05, and in Central America
following the completion of the transition of support services to the regional platform in El Salvador in
FY’06. Target date for completion: End of FY ’06.

Recommendation #6: Establish a process for monitoring all service agreements between the
regional service centers and the client missions and ensure that service agreements are updated
annually.

The Bureau agrees with this recommendation. This function will be a joint effort between the field
missions and the LAC Bureau’s regionalization unit. Efforts to review and update existing agreements
are already underway in the field missions, starting with USAID/Bolivia, and the Bureau will be present
at the upcoming regional management support conference in December. While monitoring service
agreements will be a function of the new regionalization unite, the Bureau will plan annual regional
management support conferences in which agreements will formally reviewed and updated. Target date
for completion: End of CY ’05.

Recommendation #7: Establish a process for reviewing the staffing template and other cost
savings at the field missions.



                                                                                                           20
                                                                                           Appendix II

The Bureau agrees with this recommendation, but notes that the Agency’s staffing template was just
established and implemented in FY’03 and will be generating new staffing levels every two years.
Additionally, since the inception of the Template, the Agency received authorization for an additional 85
overseas USDH slots to be used to hire Foreign Service Limited Appointees. This additional appointing
authority will also be factored into the review process. The Bureau has developed staffing plans to be in
compliance with the current template levels by the end of FY’05 and is now conducting a review of the
FY’04 staffing actions for each field mission. The review of the staffing template and other cost savings
at the field missions will be part of the regionalization unit’s mandate and will also be included in the
Bureau’s ongoing Mission Management Assessment efforts. Target date for completion: Continuous




                                                                                                      21
